No. __________
IN THE
SUPREME COURT OF THE UNITED STATES

RONALD LEWIS COLEMAN, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

APPENDIX

Scott Graham
Counsel of Record for Petitioner
SCOTT GRAHAM PLLC
1911 West Centre Avenue, Suite C
Portage, Michigan 49024-5399
Telephone: 269.327.0585
E-mail: sgraham@scottgrahampllc.com

INDEX TO APPENDICES

APPENDIX A

OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT (10/22/20) .................... A1

APPENDIX B

JUDGMENT OF THE UNITED STATES DISTRICT
COURT FOR THE WESTERN DISTRICT OF
MICHIGAN, SOUTHERN DIVISION (07/16/20) ....................... A5

i

Case: 20-1701

Document: 15-1

Filed: 10/22/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: October 22, 2020

Mr. Scott Graham
Law Offices
1911 W. Centre Avenue
Suite C
Portage, MI 49024
Mr. Davin M. Reust
Office of the U.S. Attorney
P.O. Box 208
Grand Rapids, MI 49501
Re: Case No. 20-1701, USA v. Ronald Coleman, Jr.
Originating Case No. : 1:17-cr-00136-1
Dear Counsel:
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Karen S. Fultz
Case Manager
Direct Dial No. 513-564-7036
cc: Mr. Thomas Dorwin
Enclosure
Mandate to issue

A-1

(1 of 4)

Case: 20-1701

Document: 15-2

Filed: 10/22/2020

Page: 1

(2 of 4)

NOT RECOMMENDED FOR PUBLICATION
No. 20-1701
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.
RONALD LEWIS COLEMAN, JR.,
Defendant-Appellant.

FILED

Oct 22, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
MICHIGAN

ORDER

Before: SILER, CLAY, and THAPAR, Circuit Judges.

Ronald Lewis Coleman, Jr., a federal prisoner represented by counsel, appeals the district
court’s order denying his motion for compassionate release, filed under 18 U.S.C. § 3582(c)(1)(A).
The parties waived oral argument, and this panel unanimously agrees that oral argument is not
needed. See Fed. R. App. P. 34(a).
In 2017, Coleman pleaded guilty to conspiring to distribute cocaine, in violation of 21
U.S.C. §§ 841(a)(1) and 846, distributing or possessing with intent to distribute a controlled
substance, in violation of 21 U.S.C. § 841(a)(1), and being a felon in possession of a firearm, in
violation of 18 U.S.C. § 922(g). Coleman’s guidelines range would have been 63 to 78 months,
but he was subject to a ten-year minimum term under 21 U.S.C. § 841(b)(1)(B)(ii) for the
conspiracy conviction because he had at least one predicate drug conviction. The district court

A-2

Case: 20-1701

Document: 15-2

Filed: 10/22/2020

Page: 2

sentenced Coleman to concurrent prison terms of 120 months. We affirmed the district court’s
judgment. United States v. Coleman, 923 F.3d 450 (6th Cir. 2019).
In 2020, Coleman filed a pro se motion for compassionate release, arguing that release was
warranted based on (1) the dangers posed by the COVID-19 pandemic and his family history of
asthma and hypertension; and (2) the fact that, if sentenced at that time, the mandatory minimum
term would be five years rather than ten years because his prior drug convictions no longer qualify
as predicate offenses under § 841(b)(1)(B)(ii), given that he did not serve a prison term of more
than twelve months for either conviction. Coleman’s appointed counsel later filed a similar
motion, adding that Coleman has a history of asthma, hypertension, allergies, and inhaler use, that
he has a high level of community support, and that he has done everything possible to rehabilitate
himself. Counsel also filed a supplement, noting that there was an active case of COVID-19 at
FCI Oxford, where Coleman is housed.
The district court denied Coleman’s motion, concluding that he failed to demonstrate that
there was an extraordinary and compelling reason for his release. The court reasoned that the
general risk from COVID-19 was not an extraordinary and compelling reason; that Coleman failed
to show that he suffered from any chronic health issue that placed him at a higher risk of serious
illness should he contract Covid-19; and that there were only two cases of COVID-19 at FCI
Oxford. The district court further reasoned that the First Step Act’s reduction of Coleman’s
mandatory minimum term was not an extraordinary and compelling reason to release him because,
given that Congress declined to make the relevant provisions of the Act retroactive, see United
States v. Wiseman, 932 F.3d 411, 417 (6th Cir. 2019), cert. denied, 140 S. Ct. 1237 (2020) (mem.),
it would circumvent congressional intent to find that the statutory change was an extraordinary
and compelling reason for release.
On appeal, Coleman argues that the district court erred by concluding that (1) he failed to
establish an extraordinary and compelling reason for his release based on the fact that his
mandatory minimum sentence is lower after the First Step Act; and (2) he otherwise failed to

A-3

(3 of 4)

Case: 20-1701

Document: 15-2

Filed: 10/22/2020

Page: 3

establish an extraordinary and compelling reason for his release, particularly in light of his
respiratory problems and the dangers of COVID-19.
The compassionate release statute permits the district court to reduce a defendant’s
sentence, “after considering the factors set forth in section 3553(a) to the extent they are applicable,
if it finds that . . . extraordinary and compelling reasons warrant such a reduction” and that the
“reduction is consistent with applicable policy statements issued by the Sentencing Commission.”
18 U.S.C. § 3582(c)(1)(A). The district court must also find that the defendant “is not a danger to
the safety of any other person or the community.” Id.
We review the district court’s denial of compassionate release for an abuse of discretion.
See United States v. Kincaid, 802 F. App’x 187, 188 (6th Cir. 2020). Considering that Coleman
failed to submit any evidence supporting his allegations that he suffers from health issues that
place him at a high risk from COVID-19, and, in fact, Bureau of Prisons records contradict his
assertions, the district court’s determination that the general risk to Coleman from COVID-19 did
not establish extraordinary and compelling reasons for compassionate release was not an abuse of
discretion.
Moreover, given the lack of other significant factors supporting Coleman’s release, the
district court did not abuse its discretion in determining that the amendment to the mandatory
minimum sentence for Coleman’s offense alone did not rise to the level of an “extraordinary and
compelling reason[]” warranting a sentence reduction.
Accordingly, we AFFIRM the district court’s order denying Coleman’s motion for
compassionate release.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

A-4

(4 of 4)

Case 1:17-cr-00136-PLM ECF No. 135 filed 07/16/20 PageID.955 Page 1 of 4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
-vRONALD L. COLEMAN, JR.,
Defendant.

)
)
)
)
)
)
)
)

No. 1:17-cr-136
Honorable Paul L. Maloney

ORDER DENYING MOTION FOR COMPASSIONATE RELEASE
Defendant Ronald L. Coleman, Jr., is serving a 120-month term of imprisonment for
conspiracy to distribute cocaine, possession with intent to distribute cocaine, and being a
felon in possession of a firearm (ECF No. 76). Coleman filed a motion for compassionate
release (ECF Nos. 121). The Court has had the benefit of briefing from appointed counsel
(ECF Nos. 123, 126, 134) and a response from the Government (ECF No. 127). For the
reasons to be explained, the motion will be denied.
Coleman requests that the Court grant him compassionate release from prison. He
fears that if he stays in prison, he will contract COVID-19, the coronavirus disease declared
a pandemic by the World Health Organization on March 11, 2020 and declared a national
emergency by President Trump on March 20, 2020. Coleman is currently incarcerated at
Oxford FCI, located in Oxford, Wisconsin. The BOP reports that one inmate and one staff
member are currently infected with the virus at Oxford FCI. See COVID-19 Cases, Federal
Bureau of Prisons, www.bop.gov/coronavirus (last visited July 13, 2020).

A-5

Case 1:17-cr-00136-PLM ECF No. 135 filed 07/16/20 PageID.956 Page 2 of 4

“Federal courts are forbidden, as a general matter, to ‘modify a term of imprisonment
once it has been imposed,’ 18 U.S.C. § 3582(c); but the rule of finality is subject to a few
narrow exceptions.” Freeman v. United States, 546 U.S. 522, 526 (2011); see United States

v. Curry, 606 F.3d 323, 326 (6th Cir. 2010). In the First Step Act, Congress amended 18
U.S.C. § 3582(c)(1)(A), the provision authorizing compassionate release. Prior to the
amendments, only the Bureau of Prisons could file a motion with the Court seeking
compassionate release. See, e.g., Crowe v. United States, 430 F. App’x 484, 484-85 (6th Cir.
2011) (per curiam). As amended, the statute now permits prisoners to file a motion with the
court subject to certain limitations. The statute allows a prisoner to seek relief in the courts
“after the defendant has exhausted all administrative rights to appeal a failure by the Bureau
of Prisons to bring a motion on the defendant’s behalf or the lapse of 30 days from the
receipt of such a request by the warden of the defendant’s facility, whichever is earlier . . . .”
18 U.SC. § 3582(c)(1)(A). The defendant must also establish “extraordinary and compelling
reasons[.]” Id. at § 3582(c)(1)(A)(i). Finally, the court must find that the sentence reduction
“is consistent with applicable policy statements issued by the Sentencing Commission. Id. at
§ 3582(c)(1)(A).
Coleman has exhausted his administrative remedies. At some point, Coleman
submitted a request to the warden at Oxford FCI. On May 19, 2020, he received a response
denying that request. The 30-day window to appeal the denial has since closed.
However, Coleman has not demonstrated extraordinary and compelling reasons for
compassionate release. When considering extraordinary and compelling reasons under the
compassionate release provision, this Court looks at the individual defendant’s characteristics

2

A-6

Case 1:17-cr-00136-PLM ECF No. 135 filed 07/16/20 PageID.957 Page 3 of 4

and underlying health conditions and the situation at the defendant’s place of incarceration.

See, e.g., Miller v. United States, Case No. 16-20222-1, 2020 WL 1814084, at *4 (E.D. Mich.
Apr. 9, 2020) (collecting cases). A threat of infection, which applies to all prisoners, generally
will not establish the sort of extraordinary and compelling reasons required by statute. See,

e.g., United States v. McMurray, Case No. 1-18-cr-10010, 2020 WL 2044700, at *1 (W.D.
Tenn. Apr. 28, 2020) (citing United States v. Eberhart, Case No. 13-cr-313, 2020 WL
1450745, at *2 (N.D. Cal. Mar. 25, 2020)).
Coleman has not demonstrated extraordinary and compelling reasons for his release.
He does not allege that he suffers from any chronic health issues that place him at higher
risk of serious illness should he contract COVID-19. Further, there are only two cases of
COVID-19 at Oxford FCI. Coleman’s general threat of infection and the situation at Oxford
FCI are insufficient to establish extraordinary and compelling reasons for compassionate
release.
Coleman also argues that the First Step Act provides extraordinary and compelling
reasons for compassionate release. At the time Coleman was sentenced, 21 U.S.C.
§ 841(b)(1)(B) required a mandatory minimum sentence of 120 months because Coleman’s
criminal history showed two prior “serious drug” felonies. The First Step Act changed the
definition of a “serious drug felony” under 21 U.S.C. § 802(57), and that impacted
defendants like Coleman: if Coleman were to be sentenced today, he would only receive a
mandatory minimum sentence of 60 months because one of his prior convictions no longer
qualifies as a “serious drug felony.” Coleman now argues that he should be entitled to the
benefit of this change: the disparity between the sentence he received and the sentence he

3

A-7

Case 1:17-cr-00136-PLM ECF No. 135 filed 07/16/20 PageID.958 Page 4 of 4

would receive today is an extraordinary and compelling reason that should authorize a
sentence reduction. Coleman cites an out-of-circuit district court case that recently applied
this logic to reduce a defendant’s sentence: United States v. Marks, Case No. 03-CR-6033L,
2020 WL 1908911 (Apr. 20, 2020).
However, this argument ignores relevant in-circuit precedent. Recently, the Sixth
Circuit confirmed that while portions of the First Step Act are retroactive, the changes to
mandatory minimum sentences under § 841 are not retroactive. United States v. Wiseman,
932 F.3d 411, 417 (6th Cir. 2019). Defendants sentenced before the First Step Act’s effective
date of December 21, 2018 cannot benefit from the Act unless they meet the limited criteria
for retroactive application. Id. Coleman was sentenced in January 2018, and he does not
meet the criteria for retroactive application. Congress expressly declined to make the changes
to “serious drug” felonies retroactive, and this Court declines to use the “extraordinary and
compelling reasons” language to circumvent congressional intent. While Coleman’s sentence
may be different if he were convicted and sentenced today, the sections of the First Step Act
that influence that decision are not retroactive. Therefore, the Court finds that this is not an
extraordinary and compelling reason sufficient to reduce his sentence.
Accordingly, Coleman’s motions for compassionate release (ECF Nos. 121, 123, 126)
are DENIED.
IT IS SO ORDERED.
Date: July 16, 2020

/s/ Paul L. Maloney
Paul L. Maloney
United States District Judge

4

A-8

